TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Collection Employees Adhered to Fair Tax
                    Collection Practices From January 2009
                            Through September 2009



                                          March 17, 2010

                              Reference Number: 2010-10-037




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


COLLECTION EMPLOYEES ADHERED                            subject to disciplinary action. From January
TO FAIR TAX COLLECTION PRACTICES                        through September 2009, IRS collection
FROM JANUARY 2009 THROUGH                               employees did not violate the FTCP statute.
SEPTEMBER 2009                                          The IRS coded only three cases as
                                                        FTCP complaints; however, two cases were not
                                                        substantiated as FTCP violations and the other
Highlights                                              was improperly coded as an FTCP case. TIGTA
                                                        recommended the miscoding be fixed during the
                                                        audit and the IRS corrected the miscoding. In
Final Report issued on March xx, 2010                   addition, there were no civil actions resulting in
                                                        monetary settlements being paid to taxpayers
Highlights of Report Number: 2010-10-037 to the         because of an FTCP violation.
Internal Revenue Service Chief Counsel and the
Human Capital Officer.                                  WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                     TIGTA made no recommendations in this report.
                                                        However, key IRS management officials
The abuse or harassment of taxpayers by Internal        reviewed the report prior to issuance and agreed
Revenue Service (IRS) employees while attempting        with the facts and conclusions presented.
to collect taxes reflects poorly on the IRS and can
have a negative impact on voluntary compliance. It
can also result in civil damages against the Federal
Government when Fair Tax Collection
Practices (FTCP) are violated. From January
through September 2009, there were no cases
involving FTCP violations for which an employee
received administrative disciplinary action and there
were no taxpayers who received civil damages for
an FTCP violation. As a result, taxpayers have
reasonable assurance that communications with the
IRS in connection with the collection of unpaid
taxes generally did not violate the FTCP statute.
WHY TIGTA DID THE AUDIT
The overall objective of this review was to obtain
information on IRS administrative or civil actions
resulting from FTCP violations by IRS employees.
Section 1102(d)(1)(G) of the IRS Restructuring and
Reform Act of 1998 requires TIGTA to include in
one of its Semiannual Reports to Congress
information regarding administrative or civil actions
related to FTCP violations. This audit was
conducted as part of the TIGTA Fiscal Year 2010
Annual Audit Plan and addresses the major
management challenge of Taxpayer Protection and
Rights.
WHAT TIGTA FOUND
The FTCP provisions of Internal Revenue Code
Section 6304 prohibit employees from using
abusive or harassing behavior toward taxpayers
when attempting to collect taxes. Employees who
are found to have violated the FTCP could be
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 17, 2010


 MEMORANDUM FOR CHIEF COUNSEL
                INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Collection Employees Adhered to Fair Tax
                                 Collection Practices From January 2009 Through September 2009
                                 (Audit # 201010007)

 This report presents the results of our review of Fair Tax Collection Practices 1 (FTCP) violations
 from January through September 2009. The overall objective of this review was to obtain
 information on Internal Revenue Service (IRS) administrative or civil actions resulting from
 FTCP violations by IRS employees. Section 1102(d)(1)(G) of the IRS Restructuring and Reform
 Act of 1998 2 requires the Treasury Inspector General for Tax Administration to include in one of
 its Semiannual Reports to Congress information regarding administrative or civil actions related
 to FTCP violations. This audit is included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Taxpayer Protection and Rights.
 We made no recommendations in this report. However, key IRS management officials reviewed
 the report prior to issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations),
 at (202) 622-8500.




 1
     26 U.S.C. Section 6304 (2007).
 2
     Pub. L. No. 105-206, 112 Stat. 702-703.
                      Collection Employees Adhered to Fair Tax Collection Practices
                               From January 2009 Through September 2009




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          No Fair Tax Collection Practices Violations Were Identified ......................Page 3
          No Fair Tax Collection Practices Violations Resulted in Civil
          Damages (Monetary Awards) to Taxpayers .................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Outcome Measure ................................................................Page 9
          Appendix V – Fair Tax Collection Practices Provisions ..............................Page 10
          Appendix VI – Fair Tax Collection Practices Violation Issue Codes ..........Page 11
         Collection Employees Adhered to Fair Tax Collection Practices
                  From January 2009 Through September 2009




                        Abbreviations

ALERTS            Automated Labor and Employee Relations Tracking System
FTCP              Fair Tax Collection Practices
IRS               Internal Revenue Service
                   Collection Employees Adhered to Fair Tax Collection Practices
                            From January 2009 Through September 2009




                                           Background

Section (§) 1102(d)(1)(G) of the Internal Revenue Service (IRS) Restructuring and Reform Act of
1998 1 requires that the Treasury Inspector General for Tax Administration include in one of its
Semiannual Reports to Congress information regarding any administrative or civil actions related to
violations of the Fair Tax Collection Practices (FTCP) listed in 26 U.S.C. § 6304. 2 The Treasury
Inspector General for Tax Administration’s Semiannual Report to Congress must provide a
summary of such actions and include any judgments or awards granted.
As originally enacted, the Fair Debt Collection Practices Act3 included provisions that prohibit
various collection abuses and harassment in the private sector. The restrictions did not apply to
Federal Government practices. However, Congress believed that it was appropriate to require the
IRS to comply with applicable portions of the Fair Debt Collection Practices Act and to be at least
as considerate to taxpayers as private creditors are required to be with their customers. The
IRS Restructuring and Reform Act of 1998 § 3466 requires that the IRS follow FTCP provisions
that are similar to the Fair Debt Collection Practices Act provisions.4
Violations of the FTCP and related disciplinary actions are tracked on the IRS Human Capital
Officer Workforce Relations’ Automated Labor and Employee Relations Tracking System
(ALERTS). For this review, we analyzed cases closed from January 1 through September 30, 2009,
on the ALERTS to identify violations of the FTCP. 5 To be an FTCP violation that the Treasury
Inspector General for Tax Administration is required to report, the action must have been taken by
an IRS employee who was involved in a collection activity and who received a disciplinary action
that is considered an administrative action.
The law does not provide a definition of “administrative action.” We used the IRS’ definition of a
disciplinary action when determining the number of violations to report under IRS Restructuring
and Reform Act of 1998 § 1102(d)(1)(G). As defined by the IRS, disciplinary actions range from a
letter of admonishment to removal.
In addition, taxpayer civil actions are tracked on the Office of Chief Counsel’s Counsel Automated
System Environment. We also determined whether there were any FTCP violation cases that
resulted in judgments or awards granted on the Counsel Automated System Environment from
January 1 through September 30, 2009.

1
  Pub. L. No. 105-206, 112 Stat 702-703.
2
  26 U.S.C. § 6304 (2007).
3
  15 U.S.C. §§ 1601 note, 1692-1692o (2006).
4
  See Appendix V for a detailed description of FTCP provisions.
5
  We could not validate that the cases recorded on the ALERTS constitute all FTCP violations. There was no way to
determine if any potential violations were reported but not recorded on the ALERTS.
                                                                                                         Page 1
                Collection Employees Adhered to Fair Tax Collection Practices
                         From January 2009 Through September 2009



This review was performed at the offices of the IRS Human Capital Officer and the Chief Counsel
in the IRS National Headquarters in Washington, D.C., during the period October 2009 through
January 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                          Page 2
                  Collection Employees Adhered to Fair Tax Collection Practices
                           From January 2009 Through September 2009




                                     Results of Review

No Fair Tax Collection Practices Violations Were Identified
We did not identify any FTCP violations during the audit period. As such, taxpayers have
reasonable assurance that communications with the IRS in connection with the collection of
unpaid taxes generally did not violate the FTCP statute.
Although we did not identify any FTCP violations, three cases were coded as FTCP complaints
and closed on the ALERTS from January 1 through September 30, 2009. Specifically, two cases
involved potential FTCP violations that were unsubstantiated and one case was miscoded. The
miscoded case was not an FTCP violation because it involved improper disclosure of taxpayer
information and unprofessional conduct and not the use of obscene/profane language as coded.
During the audit, we recommended that the miscoding be corrected, and the Workforce Relations
function staff corrected the miscoding by amending the case to reflect the appropriate issue codes
instead of the FTCP violation issue code. 6
In our previous reports, 7 we have noted the miscoding of a significant number of cases. As a
result, we previously recommended that improvements be made to ensure cases are coded
correctly. In addressing our prior recommendation, IRS management implemented a hard-code
validation 8 of the ALERTS in January 2009. However, the hard-code validation would not have
prevented the one miscoded case identified above.
To determine whether other types of cases were miscoded, we also reviewed 615 cases on the
ALERTS in 6 other case categories involving employee misconduct allegations, including those
coded as either “Unprofessional Conduct” or “Not Otherwise Coded,” to determine whether any
of the cases should have been coded as FTCP violations. All data in the ALERTS must be
accurate so that IRS management can detect any problems or trends that might exist and properly
address them. In addition, the ALERTS is the data source for reports provided to a number of
other offices and at times is the basis for information provided to Congress on legislation
affecting the IRS. We concluded that the IRS had improved its coding process because we did



6
  See Appendix IV for additional details.
7
  Collection Employees Adhered to Fair Tax Collection Practices in Calendar Year 2008 (Reference
Number 2009-10-101, dated July 23, 2009) and Five Fair Tax Collection Practices Violations Resulted in
Administrative Actions in Calendar Year 2007 (Reference Number 2008-10-162, dated September 5, 2008).
8
  An enhancement to an ALERTS software program that only allows FTCP violation issue codes on cases for which
the affected party was a taxpayer/taxpayer representative and the case involved an employee performing specific
collection-related activities.
                                                                                                       Page 3
                Collection Employees Adhered to Fair Tax Collection Practices
                         From January 2009 Through September 2009



not identify any additional cases that should have been coded as an FTCP violation from the
cases we reviewed in the six other categories.

No Fair Tax Collection Practices Violations Resulted in Civil Damages
(Monetary Awards) to Taxpayers
Section 7433 of the Internal Revenue Code provides that a taxpayer may bring a civil action for
damages against the Federal Government if an officer or employee of the IRS recklessly,
intentionally, or by reason of negligence disregards any provision of the Internal Revenue Code
or related regulation in connection with the collection of Federal tax.
There were no cases closed on the Counsel Automated System Environment from
January 1 through September 30, 2009, for which the IRS paid civil damages to taxpayers
resulting from an FTCP violation.




                                                                                          Page 4
                     Collection Employees Adhered to Fair Tax Collection Practices
                              From January 2009 Through September 2009



                                                                                           Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to obtain information on IRS administrative or civil actions
resulting from FTCP violations by IRS employees. To accomplish the objective, we:
I.         Identified the number of FTCP violations resulting in administrative actions.
           A. Obtained a computer extract from the ALERTS of any cases opened after July 22, 1998,
              with an issue code of 141 to 147, 1 and closed during the period January 1 through
              September 30, 2009. Due to time constraints, we did not conduct validation tests of this
              system.
           B. Determined whether any cases in the extract involved FTCP violations that resulted in
              administrative actions.
           C. Obtained a computer extract from the ALERTS of any cases opened after July 22, 1998,
              and closed during the period January 1 through September 30, 2009, with the following
              issue codes:
               •   013 (Position/Authority Misuse – limited to only those closed with a disposition
                   code of 009 or higher).
               •   020 (Fighting, Assaults, and Threats – limited to only those closed with a disposition
                   code of 009 or higher).
               •   058 (Unprofessional Conduct – limited to only those closed with a disposition code
                   of 009 or higher).
               •   114 (Conviction Assault/Battery – all disposition codes).
               •   119 (Threat of Audit/Personal – all disposition codes).
               •   999 (Not Otherwise Coded – limited to only those closed with a disposition code of
                   009 or higher).
           D. Analyzed the ALERTS extract and determined whether any of the cases in these
              categories were miscoded and should have been coded as FTCP violations.




1
    See Appendix VI for additional information.
                                                                                                  Page 5
                 Collection Employees Adhered to Fair Tax Collection Practices
                          From January 2009 Through September 2009



II.    Determined whether there were any FTCP violation cases (Subcategory 6304, established to
       track FTCP violations) resulting in IRS civil actions (judgments or awards granted) on the
       Office of Chief Counsel’s Counsel Automated System Environment database that had been
       opened after July 22, 1998, and closed during the period January 1 through
       September 30, 2009. Due to time constraints, we did not conduct validation tests of this
       system. The data for January 1 through September 30, 2009, were consistent with those of
       past years, and there is less risk that cases were misclassified because qualified attorneys
       were deciding whether each case met the legal definition of an FTCP violation. For these
       reasons, we considered the data’s reliability as undetermined but suitable for use in this
       report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. For this audit, we determined
that internal controls related to the reliability of information were relevant to our audit objective.
We evaluated these controls by reviewing cases and discussing any potentially miscoded cases
with management.




                                                                                               Page 6
               Collection Employees Adhered to Fair Tax Collection Practices
                        From January 2009 Through September 2009



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
William Simmons, Lead Auditor
Stephen A. Elix, Auditor




                                                                                   Page 7
               Collection Employees Adhered to Fair Tax Collection Practices
                        From January 2009 Through September 2009



                                                                   Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Workforce Relations, IRS Human Capital Officer OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Counsel CC
       IRS Human Capital Officer OS:HCO




                                                                          Page 8
                  Collection Employees Adhered to Fair Tax Collection Practices
                           From January 2009 Through September 2009



                                                                                         Appendix IV

                                   Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; one ALERTS 1 record (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed the three FTCP complaints closed on ALERTS from January 1 through
September 30, 2009, and determined that one of the cases was incorrectly coded as an
FTCP violation. The miscoded case was not an FTCP violation because it involved improper
disclosure of taxpayer information and unprofessional conduct, and not the use of
obscene/profane language as coded. During the audit, we recommended that the miscoding be
corrected, and the Workforce Relations function staff corrected the miscoding by amending the
case to reflect the appropriate issue codes instead of the FTCP violation issue code.




1
 The Office of Workforce Relations’ ALERTS generally tracks employee behavior that may warrant
IRS management administrative actions.
                                                                                                 Page 9
                     Collection Employees Adhered to Fair Tax Collection Practices
                              From January 2009 Through September 2009



                                                                                     Appendix V

                Fair Tax Collection Practices Provisions

To ensure equitable treatment of debt collectors in the public and private sectors, the
IRS Restructuring and Reform Act of 1998 1 requires the IRS to comply with certain provisions
of the Fair Debt Collection Practices Act. 2 Specifically, the IRS may not communicate with
taxpayers in connection with the collection of any unpaid tax:
      •    At unusual or inconvenient times.
      •    If the IRS knows that the taxpayer has obtained representation from a person authorized
           to practice before the IRS and the IRS knows or can easily obtain the representative’s
           name and address.
      •    At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
           communication is prohibited.
In addition, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
      •    Use or threat of violence or harm.
      •    Use of obscene or profane language.
      •    Causing a telephone to ring continuously with harassing intent.
      •    Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
    Pub. L. No. 105-206, 112 Stat. 768-769.
2
    15 U.S.C. Sections 1601 note, 1692-1692p (2006).
                                                                                              Page 10
                  Collection Employees Adhered to Fair Tax Collection Practices
                           From January 2009 Through September 2009



                                                                                    Appendix VI

  Fair Tax Collection Practices Violation Issue Codes

  Issue Code                                          Description
      141          CONTACT TAXPAYER UNUSUAL TIME/PLACE – Contacting a taxpayer
                   before 8:00 a.m. or after 9:00 p.m., or at an unusual location or time, or location
                   known or which should be known to be inconvenient to the taxpayer.
      142          CONTACT TAXPAYER WITHOUT REPRESENTATIVE – Contacting a
                   taxpayer directly without the consent of the taxpayer’s Power of Attorney.
      143          CONTACT AT TAXPAYER EMPLOYMENT WHEN PROHIBITED –
                   Contacting a taxpayer at his or her place of employment when it is known or
                   should be known that the taxpayer’s employer prohibits the taxpayer from
                   receiving such communication.
      144          USE/THREAT OF PHYSICAL HARM – Conduct which is intended to harass
                   or abuse a taxpayer, or conduct which uses or threatens to use violence or harm.
      145          USE OBSCENE/PROFANE LANGUAGE TO ABUSE – The use of obscene
                   or profane language toward a taxpayer.
      146          CONTINUOUS PHONE CALLS WITH INTENT TO HARASS – Causing a
                   taxpayer’s telephone to ring continuously with harassing intent.
      147          PHONE CALLS WITHOUT MAKING FULL IDENTIFICATION
                   DISCLOSURE – Contacting a taxpayer by telephone without providing a
                   meaningful disclosure of the IRS employee’s identity.
Source: IRS ALERTS User Guide (January 2008).




                                                                                              Page 11
